!
:
i

t
r

APPENDIX "A"

>

Summary decisions issued by the Appeals Court pursuant to M.A.C. Rule
NOTICE:
23.0, as appearing in 97 Mass. App. Ct. 1017 (2020) (formerly known as rule 1:28,
as amended by 73 Mass. App. Ct. 1001 [2009] ), are primarily directed to the parties
and, therefore, may not fully address the facts of the case or the panel’s
decisional rationale. Moreover, such decisions are not circulated to the entire
court and, therefore, represent only the views of the panel that decided the case.
A summary decision pursuant to rule 23.0 or rule 1:28 issued after February 25,
2008, may be cited for its persuasive value but, because of the limitations noted
above, not as binding precedent. See Chace v. Curran, 71 Mass. App. Ct. 258, 260
n.4 (2008).
COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT
20-P-512
COMMONWEALTH
vs.

>

JAMAIL D. HAIRSTON.
MEMORANDUM AND ORDER PURSUANT TO RULE 23.0
f

Following a bench trial in the Superior Court, the
defendant was convicted of the lesser included offense of
assault and battery, G. L. c.

265, § 13A, on an indictment

charging him with indecent assault and battery, G. L. c. 265,
§ 13H.1

On appeal, he argues that it was error to permit the

officer who questioned him about the incident to testify at
trial that he "refused to answer any questions" after receiving
his Miranda warnings.2

Because there was no objection (and no

motion to strike the officer's testimony),

"we must determine

1 The judge allowed the defendant's motion for a required finding
of not guilty on an additional charge of open and gross lewdness
stemming from the same series of events and the defendant was
acquitted of two counts of indecent assault and battery.
2 See generally Miranda v. Arizona, 384 U.S. 436, 471 (1966) .

-a'

i

whether the error created a substantial risk of a miscarriage of
justice."

See Commonwealth v. Alphas, 430 Mass. 8, 13 (1999).

Background.

In June 2018, the defendant and the victim,

whom we shall call Ed, were incarcerated at the Massachusetts
Treatment Center (MTC).

The two struck up a friendship and

initially enjoyed visiting and doing things together.
within a few weeks, the defendant’s conduct changed.

However,
At first,

he touched Ed on his "front private area" and his "butt."

He

then became more aggressive and on one occasion he pinned Ed to
the floor of his cell and put his hand inside Ed's pants from
behind.

Following this incident, Ed reported the defendant’s

conduct to two fellow inmates, Thomas-McMahon and.Derek Gaughan.
Both McMahon and Gaughan testified at trial, McMahon as a first
complaint witness and Gaughan as an eyewitness to one of the
!

assaults.

Ed then reported the incident to. Richard Pagan, an

internal perimeter security officer

Ed sustained a bruise

during the incident, which was observed by Officer Pagan and a
nurse who examined Ed.at the health.services unit.

After

speaking with Ed, Officer Pagan initiated an investigation,
which included conducting interviews and viewing video
surveillance tapes.

During the course of his investigation,

Officer Pagan questioned the defendant.
conducted in an "interrogation room."

The interview was
Officer Pagan testified

that he "Mirandized" the defendant, which we understand to mean

2

that the defendant was given his Miranda warnings, and the
defendant would not answer his questions.3

The exchange between

the prosecutor and Officer Pagan was as follows:
Q. :

"And who did you speak to other than [Ed]?"

A. :

"I also spoke with the defendant, which he refused to
answer any questions."

Q. :

"All right,
to."

A. :

"As far as witnesses: Derek Gaughan, McMahon - I
don't remember his first name — and [Ed]. That was
it. "

Not what he said, but just who you spoke

The defendant testified on his own behalf and denied the
allegations.

He acknowledged that he was friendly with Ed and

went to his cell on a number of occasions, although doing so was
against the rules of the facility, so that Ed could fix his
electronics.
Discussion.

As the Commonwealth properly concedes, Officer

Pagan's testimony that the defendant "refused to answer any
questions" was improper.

It is well settled that "a defendant's

silence after [receiving Miranda] warnings will carry no
penalty."

i

Commonwealth v. Peixoto, 430 Mass. 654, 657 (2000).

Here, Officer Pagan's response implied that if the defendant had
not engaged in the conduct on which the charges were based, he
would have denied the allegations when Officer Pagan interviewed

3 We note that the testimony regarding the giving of Miranda
warnings was solicited during cross-examination, but that does
not affect our analysis.
3

l

I
I

him, as the defendant later did at trial.

Although we conclude

the testimony was admitted in error, we agree with the
Commonwealth that the error did not create a substantial risk of
a miscarriage of justice. • See Alphas, 430 Mass, at 13.
To begin with, we note that the defendant was tried without
a jury.

Even in the absence of an objection, we are confident

that the trial judge was aware of the legal principles
implicated by the testimony at issue and would have disregarded
it.

We further note that the prosecutor immediately sought to

clarify Officer Pagan's testimony and never mentioned the
defendant's post-Miranda silence during the remainder of the
trial.

Contrast Commonwealth v. Rendon-Alvarez, 48 Mass. App.

Ct. 140, 142 (1999)

(defendant entitled to new trial where

prosecutor highlighted improper testimony regarding post-Miranda
silence during closing argument).
evidence of guilt was strong.

More fundamentally, the

In addition to Ed's testimony and

that of the first complaint witness, the video surveillance
tapes showed the defendant entering Ed's room on multiple
occasions during the relevant time period.

The Commonwealth

also introduced a photograph depicting a bruise on Ed's upper
arm that corroborated Ed's testimony that the defendant had
pinned him to the ground, and Gaughan testified that he saw the
defendant wrestling with someone in Ed's room.

Given this

evidence, we conclude that the challenged testimony had very

4

slight, if any, effect and did not create a substantial risk of
a miscarriage of justice.

See Alphas, 430 Mass, at 14.
Judgment affirmed.
By the Court (Vuono, Rubin &
Sullivan, JJ.4) ,

Entered:

February 16, 2021.

4 The panelists are listed in order of seniority.
5

APPENDIX "B"

Yahoo Mail - FAR-28124 - Notice: FAR denied

4/16/2021

FAR-28124 - Notice: FAR denied
From: SJCCommClerk@sjc.state.ma.us (sjccommcIerk@sjc.state.ma.us)
To:

jcox@jennifer-cox.com

Date:

Thursday, April 15, 2021,06:00 PM EDT

Supreme Judicial Court for the Commonwealth of Massachusetts
RE:

Docket No. FAR-28124

COMMONWEALTH
vs.
JAM AIL D. HAIRSTON
Plymouth Superior Court No. 1983CR00048
A.C. No. 2020-P-0512
NOTICE OF DENIAL OF APPLICATION FOR FURTHER APPELLATE REVIEW
Please take note that on April 15, 2021, the application for further appellate review was denied.
Francis V. Kenneally Clerk
Dated: April 15,2021
To: Carolyn A. Burbine, A.D.A.
Patricia Jardim Reilly, A.D.A.
Jennifer J. Cox, Esquire
C. Raye Poole, Esquire

V
1/1

